               U.S. Department of Energy
               Office of Inspector General
               Office of Audit Services




 Audit Report
Audit of Contract Transition
Activities at Los Alamos National
Laboratory




    OAS-L-07-16                 August 2007
DOE F 1325.8
(08-93)
United States Government                                                             Department of Energy


memorandum
    DATE:      August 7, 2007                                      Audit Report No: OAS-L-07- I6

REPLY TO
ATTN OF:       I(;-32 (AObLA046)

SUBJECT:       Report on "Audit of Contract Transition Activities at Los Alanios National
               Laboratory"

       TO:     Deputy Administrator for Defense Programs, Natiolial Nuclear Security
               Administration

               INTRODUCTION AND OBJECTlV'

               Los Alanios National Laboratory (Los Alanios) is a federally-funded facility
               located in Los Alamos, New Mexico. Los Alanios' mission is to strengthen the
               nation's security, enhance tlie nation's defense, and reduce global terrorism threats
               related to weapons of mass destruction. The University of California was the sole
               management and operating contractor of Los Alamos from its inception in 1943
               until May 3 1, 2006.

               In May 2005, tlie Department of Energy (Department) competiti\ely bid the
               contract to manage Los Alamos and in December 2005 awarded the contract to Los
               Alamos National Seci~rity,LLC (LANS), a limited liability company LANS is
               comprised of Bechtel National, Inc.; the University of California; BWX
               Technologies, Inc.; and the Washington Group International, Inc. The contract,
               which commenced in June 2006, is for seven years and has a niaximuni award of
               about $I 3.4 billion, including costs plus incentive fees.

               The Department allowed about five months and approximately $1 3 nlilliol~dollars
               for the transition between contractors to be completed. We reviewed transition
               costs and activities to detemiine if costs incurred were allowable per the contract
               terms and federal guidelines and if the Department effectively managed the
               transition.

               CONCLUSIONS AND OBSERVATIONS

               Except as noted below, nothing came to our attention during the audit to indicate
               that tlie Department did not effectively manage the transition. However, we noted
               that pre-existing conditions identified during the transition and additional costs
               resulting from the change in contractors present financial and operational
               challenges.
During the course of the transition, LANS inspected numerous Los Alamos
ficilities and operations to identify any pre-existing conditions that might increase
financial and operational risk. As a result of the inspections, LAIVS reported 5 8
conditions that require corrective action. These include action in major risk areas
such as fire protection, nuclear criticality safety, environmental cleanup, cyber
security, and wcapons quality. For example, widely reported cyber security
breaches that occ~lrredat Los Alamos shorlly after tlie transition illustrated tlie
importance of expeditio~~sly    correcting major risk areas identified in the pre-
existing conditions. In a Memorandum to the Secretary "Selected Controls Over
Classified Information at tlie Los Alamos National Laboratory" (November 27,
2006), ~ . reported
             c       that, although cyber security has been an area of particular
interest over tlie years, significant procedural weaknesses continued to exist.

According to LANS management, each of the conditions identified was assigned to
a high level manager responsible for developing and implementing a corrective
action plan. Oversight of the action plans will be monitored by the Department's
I,os Alamos Site Office.

We noted that plans to correct some of the conditions will require a substantial
amount of time and effort. In one case, a large environmental cleanup project is
expected to take until 701 5 to complete. The total estimated cost for the cleanup is
$1.7 billion. The Department and LANS agreed to address pre-existing conditions
within current appropriations, which have remained fairly constant over thc last five
years at about $2 billion.

LANS will also incur increased expenses related to tlie temis of the LANS contract.
LANS reported that expenses would increase by about $176 million over tlie
previous contractor's expenses, due to increases in salary and 40 1 K benefits.
management fees and performance incenti~es,and New Mexico taxes. The
Department and LANS agreed that increased costs could be absorbed through
cfficiencies and cost cutting measures, including voluntary attrition, redeployment
of staff; and reductions in non-labor items (travel, materials, equipment, indirect
costs, and subcontract services).

Correcting costly pre-existing co~iditionsand absorbing increased contract costs
within existing budgets is a significant challenge for tlie Department and LANS.

Our review also identified $22,335 in q~lestionedtravel costs incurred during the
transition. We have conveyed details of the questioned costs to the contracting
officer for an allowability of cost detennination.

RECOMMENDATIONS

Given the challenges associated u ith implementing substantial corrective actions at
tlic same time as reducing costs, we recommend that:

    I . The Manager, Los Alamos Site Office carefully monitor LANS progress on
        correcting pre-existing conditions and implementing cost cutting measures,
        and,
        2. The Contracting Officer, Los Alanios Site Office make a deterniination
           regarding tlie allon ability of questioned travel costs.

   MANAGEMENT COMMENTS AND AUDITORRESPONSE

   Tlic National Nuclear Security Administration (NNSA) agreed m ith thc report and
   recommendations. hlNS.4 agreed with our reconimendation concerning the pre-
   existing conditions because it described its approach to contractor assurance, and
   agreed to makc a determination on tlie allowability of cluestioned costs.

   Management's comnients and planned actions, if properly implemented. are
   responsive to our reconiniendations.

   Management's comnients arc attached in their entirety.

   SCOPE AND METHODOLOGY
   --



   We reviewed the transition costs and activities related to the change in prinie
   contractors at Los Alamos National I-aboratory to determine if activities wcre
   cfl'eclively managed and costs were in compliance with contract teniis and federal
   acquisition regulations. The audit was conducted between June 2006 and March
   2007 at Los Alamos National Laboratory.

   We conducted our review in accordance with generally accepted govemnienl
   auditing standards. We included tests of compliance M it11 those laws and
   regulations which could, if not observed, have a direct and material effect on the
   intcrnal control structurc. The criteria used to evaluate the costs and activities
   include the terms of the contracts, Federal Travel Regulations, Chapter 301, and
   FAR 31. While u e did not rely on coniputer-processed data to satisfy the audit
   objective, we confiniied tlie validity of such data, when appropriate, by reviewing
   supporting source documents sucli as invoices and vouchers.

   Management waived an exit conference.




                                             h.
                                     ~ e X r - e Collard
                                     Assistant Inspector General
                                         for Perfhrmance Audits
                                     Office of Inspector General

Attachment

cc: Cliicl'of Stal'f
    Director, Policy and Intenial Controls Management, N.4-66
    Manager, Los Alanios Site Officc
    '1 earn Lcadcr, Audit Liaison Team, CF- 1.2
